<html>
<title> - MARKUP OF H.R. 6339, H.R. 6474, H.R. 6475, H.R. 6589, H.R. 998, H.R. 6625, H.R. 6608, H.RES. 1207 AND COMMITTEE RESOLUTIONS 110-7 AND 110-8</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





         MARKUP OF MULTIPLE BILLS AND TWO COMMITTEE RESOLUTIONS

=======================================================================

                                MEETING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                 HELD IN WASHINGTON, DC, JULY 30, 2008

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html



                   U.S. GOVERNMENT PRINTING OFFICE
48-068                     WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001






                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                 Will Plaster, Minority Staff Director

 
 MARKUP OF H.R. 6339, H.R. 6474, H.R. 6475, H.R. 6589, H.R. 998, H.R. 
 6625, H.R. 6608, H.RES. 1207 AND COMMITTEE RESOLUTIONS 110-7 AND 110-8

                              ----------                              


                        WEDNESDAY, JULY 30, 2008

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:28 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
(chairman of the committee) presiding.
    Present: Representatives Brady, Lofgren, Capuano, Davis of 
California, Davis of Alabama, Ehlers, Lungren, and McCarthy.
    Staff Present: Liz Birnbaum, Staff Director; Charles 
Howell, Chief Counsel; Jamie Fleet, Deputy Staff Director; 
Khalil Abboud, Professional Staff; Diana Rodriguez, 
Professional Staff; Kristie Muchnok, Professional Staff; 
Janelle Hu, Election Counsel; Jennifer Daehn, Election Counsel; 
Matt Pinkus, Professional Staff/Parliamentarian; Kyle Anderson, 
Press Director; Kristin McCowan, Chief Legislative Clerk; 
Daniel Favarulo, Legislative Assistant, Elections; Gregory 
Abbott, Policy Analyst; Fred Hay, Minority General Counsel; 
Gineen Beach, Minority Election Counsel; Ashley Stow, Minority 
Election Counsel; and Bryan T. Dorsey, Minority Professional 
Staff.
    The Chairman. I would like to now call the meeting on the 
House Administration Committee to order.
    We have many matters on the agenda today, as we are 
cleaning up before we take our August break. So we will try to 
get through them, hopefully.
    We have votes coming about 12:00 12:30. Maybe we can get 
lucky and not have to come back. If not, we will have to come 
back and take a recess when the votes are called.
    Okay, I would like to call the committee to order.
    For the information of the members, for any bills we report 
in the House of today's meeting I will file a committee's 
report when we return in September; and there will be plenty of 
time during the recess to prepare any individual views members 
may wish to submit.
    The first item on the agenda is H.R. 6339, the Federal 
Employees Deserve to Volunteer on the Elections Act of 2008, or 
FEDVOTE. Introduced by Vice Chair Representative Lofgren, this 
bill will provide leave for Federal employees to receive 
training to serve as poll workers. It would also direct the EAC 
to make grants to States for poll workers' recruitment and 
training.
    The bill was referred to the Committee on Oversight and 
Government Reform as the primary committee, with an additional 
referral to us to consider provisions relating to EAC.
    Without objection, I would like to submit several letters 
in support of the bill for the record at this point.
    Hearing no objection, I will submit them.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    The Chairman. I would now like to recognize Ms. Lofgren for 
an opening statement.
    Ms. Lofgren. Thank you, Mr. Chairman.
    First, let me offer my apologizes to the members of the 
committee. Both Mr. Lungren and I were in a markup in the 
Judiciary Committee that went longer than we thought. In fact, 
it is still going on. So that is what made us tardy, and I do 
apologize for that.
    The bill as proposed would entitle the Federal employee to 
receive administrative leave for up to 6 days a year to serve 
as a poll worker for a State or local government on Election 
Day and to receive any mandatory training that is permitted.
    The Office of Personnel Management in the bill is tasked 
with setting the regulations. As we know, poll workers are 
variously called judges, booth workers, precinct officials, 
board workers and, of course, poll workers; and the person in 
charge of the polling place on Election Day can be called a 
precinct captain, chief judge, supervisor or presiding judge, 
to name just a few.
    Consistent with the EAC's manual on poll worker recruiting, 
training and retention, this legislation uses the term poll 
worker to refer to all workers in a polling place. It provides 
grants to States for recruiting and training poll workers using 
the EAC manual on successful practices for poll worker 
recruiting, training and retention.
    The grants are not used to pay poll workers but to train 
and recruit them, and it requires grantees to report to the EAC 
and the EAC to report to the Congress on the grant program. It 
authorizes $75 million for the grants, and it also exempts the 
EAC from the Paperwork Reduction Act which will make it easier 
for the agency to request information from the public by not 
requiring approval from the Office of Management and Budget 
first.
    As we know, this has received support from a variety of 
sectors; and you have already added the letters of support into 
the record.
    I would note that Federal employees are permitted to use 
administrative leave, for example, for jury duty. This would 
simply allow another reason to use administrative leave. It is 
not a new benefit. It is just a new way to use an existing 
benefit.
    We know that we have a shortage in this country of poll 
workers. We have had hearings on this, and I think we all share 
in the desire to make sure that we have enough volunteers on 
Election Day so that we have a smooth election. This is one way 
to help, as the Federal employees we know are literate and 
responsible and would be potentially a good source of reliable 
poll workers.
    And I will have an amendment that strikes the word 
"nonpartisan" to conform to Section 3. Because some States 
organize in a very different way than California does. We need 
to make sure that there is training in all cases and a report 
in all cases. So I will do that at the appropriate time. And I 
thank the chairman for recognizing me and yield back.
    The Chairman. I thank the lady.
    I would now like to recognize the ranking member, Mr. 
Ehlers, for an opening statement.
    Mr. Ehlers. Thank you. And these are just opening 
statements on each bill separately, correct?
    The Chairman. Yes.
    Mr. Ehlers. Okay, thanks.
    We have heard many times in this committee about the 
struggle to find young, technologically savvy poll workers; and 
I think it has been very clever on the part of local clerks to 
hire students who tend to be technological and more savvy than 
some of the older people who have worked here. That is 
certainly one way to handle it.
    I am also intrigued by this proposal to have Federal 
workers, although this bill does seem to primarily address 
Virginia, D.C. And Maryland, where there are an abundance of 
Federal poll workers and does not help the backwaters of the 
United States, so to speak, where there are no Federal 
agencies.
    I sort of like the idea, but I think there are a number of 
problems here that we haven't cleared up yet. One, for example, 
is these Federal workers will receive full pay, as I understand 
the bill, during their serving as poll workers. Are we then 
going to allow them also to receive the poll worker pay from 
the local unit or does that get reimbursed to the Federal 
Government? I haven't seen that clearly specified in here.
    Ms. Lofgren. Would the gentleman yield?
    Mr. Ehlers. Yes.
    Ms. Lofgren. I am thinking really to model after a jury 
duty. I mean, in California, for example, there is a small 
stipend for a juror. We don't take it away from the employee. 
But it is like using your administrative leave in a different 
way, as if you were called to jury duty, because this civic 
duty is as important, really, in some ways as serving on a 
jury.
    And I thank the gentleman for yielding.
    Mr. Ehlers. Yes. In fact, I was drawing exactly the same 
parallel, but I live in a State with less money than 
California, and we are not allowed to double-dip there. The 
State employees who serve have to turn in their jury duty to 
the State or not receive salary for that time. And I think 
every State does it differently. In other words, I don't think 
it is appropriate for anyone to double-dip for doing this, 
because that provides a motivation you don't want.
    Ms. Lofgren. Mr. Ehlers, if I could ask you to yield again. 
Thank goodness for staff. The attorney who has been working on 
this has advised me that Federal employees cannot accept the 
pay for jury duty; and, therefore, as drafted, they would not 
be able to accept the pay for serving as poll workers, either.
    Mr. Ehlers. So they would serve free of charge as far as 
the local jurisdiction is concerned.
    Ms. Lofgren. That would be correct.
    Mr. Ehlers. Thank you.
    The other concerns that I have involve the items in here 
regarding the Election Advisory Commission, in particular the 
Paperwork Reduction Act. And I am concerned about, as I 
understand the bill, it is essentially a permanent exemption 
from the Paperwork Reduction Act. I can certainly understand 
that we might want to do it for a year or two and help them get 
their feet on the ground. But I am very concerned about giving 
them permanent exemption from the Paperwork Reduction Act, and 
so I will be offering amendments on that.
    Other than that, I think that covers the points; and I 
yield back.
    The Chairman. I thank the gentleman.
    I now call up and lay before the committee H.R. 6339.
    Without objection, the first reading is dispensed with and 
the bill is considered as read and open for amendment at any 
point.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    
    The Chairman. I would now like to recognize the lady, Ms. 
Lofgren.
    Ms. Lofgren. Thank you Mr. Chairman.
    As noted in my opening statement, I do have an amendment 
that might be distributed from the desk. Have members been 
provided with the amendment?
    Mr. Ehlers. I haven't seen an amendment.
    The Chairman. Do we have an amendment?
    Ms. Lofgren. Can we provide the amendment to Mr. Ehlers?
    The Chairman. I believe that the amendment has been 
distributed.
    Ms. Lofgren. Okay. Make sure that Mr. Ehlers has it.
    Mr. Ehlers. Okay.
    Ms. Lofgren. The amendment strikes the word ``nonpartisan'' 
before poll worker in Section 3. That would conform with the 
language in Section 2. The training should not be limited to 
nonpartisan poll workers because, in some States, they are 
partisan workers; and they all need to be trained.
    Pursuant to State law, this would not impose a new mandate 
on States. It would recognize that States organize in different 
ways. States should not be required if they have partisan 
workers--California does not--to have two sets of trainings. We 
should allow them to do one set of training.
    And then we should, for poll workers of a political 
affiliation, we want a report from them--on them as well as the 
nonpartisan. It is really--you know, I am so in favor of 
California's nonpartisan approach, and sometimes I forget that 
not every State does it in the same way. But we need to defer 
to those States that do it differently and allow them to do the 
training as they do in their States.
    Mr. Ehlers. Would the gentlelady yield?
    Ms. Lofgren. Certainly.
    Mr. Ehlers. We also don't have any partisan workers in the 
polls in Michigan. Can you give me an example where partisan 
workers are used?
    Ms. Lofgren. I believe in Philadelphia, in Pennsylvania and 
some other States. I don't have a full list, but I am aware--
here. The list, Alabama--let's see.
    Mr. Davis of Alabama. Wherever the best example----
    Ms. Lofgren. If I can give you this rather than read it 
aloud, Mr. Ehlers, I think that would be more efficient.
    Mr. Ehlers. My staff just told me that Maryland has it, 
too. So I will yield on that, and I have no problem with the 
amendment.
    Ms. Lofgren. Thank you.
    The Chairman. Okay. Also, without, objection the amendment 
is considered as read.
    [The information ]
    
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


    The Chairman. The question is on Ms. Lofgren's amendment to 
H.R. 6339. All in favor, signify by saying aye. Any opposed?
    No opposed. The amendment passes.
    Any further amendments?
    Mr. Ehlers. I have several amendments. Does Ms. Lofgren 
have any more?
    Ms. Lofgren. I don't have an additional amendment.
    The Chairman. I recognize Mr. Ehlers.
    Mr. Ehlers. I have several amendments. The first is dealing 
with the paperwork exemption or exemption from the Paperwork 
Reduction Act.
    As I said earlier, I think it would be appropriate to have 
a trial period where you have an exemption from the Paperwork 
Reduction Act while they are still going through their growing 
pains. I would just rather have this----
    The Chairman. Excuse me. Without objection, the amendment 
is considered as read. I am sorry.
    [The information follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Ehlers. Okay. Thank you.
    The amendment will simply remove--strike Section 4 of the 
bill, and I urge adoption of that amendment.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. I rise in opposition to the amendment; and 
maybe there is a way to find some common ground here, Mr. 
Ehlers.
    Here is the concern. The Paperwork Reduction Act actually 
creates a lot of paperwork and bureaucracy, and we want this to 
be smooth. I understand that because it is a departure there is 
an interest in not making a permanent change. Here is my 
concern. That if we do this, the EAC, as we know, has had 
problems organizationally, and they are going to have to change 
some things administratively. I would hate to have them do that 
for one year and then have to redo it.
    But I do understand your desire to have kind of a test 
period and see how this works. I wonder if we were to limit 
this, say, for 4 years and get a report. That would allow for a 
test, at least two elections, to see how it worked and for us 
to make changes if necessary, but it wouldn't require them to 
redo their process in a 12-month time period.
    We didn't have a chance to talk about that privately, so 
maybe it is not fair to toss it at you, but it just struck me 
as I was listening to your discussion.
    Mr. Ehlers. Well, if we are going to bargain here, I will 
suggest 1 year.
    Ms. Lofgren. Well, 1 year is the problem. By the time they 
finish, it will be all over again, so that is the concern. And 
if we could--you know, I pulled 4 years out of the hat because 
it would be two elections, but I wonder if we could find a 
common ground on that.
    The Chairman. I hear 1. I hear 4. Going on, Mr. Ehlers?
    Mr. Ehlers. Well, I would suggest 2 to match the election 
cycle. How is that?
    Ms. Lofgren. So we just have one election.
    Mr. Ehlers. Yes.
    Ms. Lofgren. Well----
    Mr. Ehlers. It would be a less stressful election.
    Ms. Lofgren. I oppose the amendment, but since this has 
just come out I would suggest that we defeat the amendment but 
we talk further about this between now and the floor and try 
and reach an agreement based on the election schedule which I 
am just sort of ad hoc'ing here with the hope and intention 
that we would reach an agreement on a suitable trial period, 
Mr. Chairman.
    The Chairman. Do I hear 3?
    Mr. Ehlers. Well, Mr. Chairman----
    Ms. Lofgren. Perhaps we could withdraw and discuss between 
now and the floor.
    Mr. Ehlers. I will just say I have been the recipient of 
many kind offers like that, and usually the promises are 
forgotten before they reach the floor of the manager's 
amendment.
    Ms. Lofgren. I do not forget my promises.
    Mr. Ehlers. I am pleased to hear that. I think this is 
something we should be able to work out as long as we end up 
with 2 years.
    The Chairman. So we will----
    Ms. Lofgren. Well, with an intention to agree, but we will 
have to see if we agree.
    Mr. Ehlers. Okay. I will withdraw my amendment with the 
understanding that we will work in good faith to come to an 
agreement on this issue.
    The Chairman. I thank the gentleman.
    Any other amendments.
    Mr. Ehlers. Yes, indeed.
    The Chairman. Without objection, the amendment is 
considered as read when offered.
    Mr. Ehlers. The others were different terms, so we have 
bypassed that issue, so that is the last amendment on this.
    The Chairman. That is the last amendment on this one here. 
Okay.
    Mr. Lungren. Mr. Chairman, may I strike the requisite 
number of words?
    The Chairman. You are recognized.
    Mr. Lungren. If I could address the question to the 
gentlelady from California, you said that since this is 
amending the already existing law and that does not allow 
payment for jury duty, therefore, it wouldn't allow payment for 
poll working, I don't see that anywhere as I look in the law. 
Are you saying that that is something that can be done by 
virtue of regulation by the Office of Personnel Management?
    Ms. Lofgren. It is my understanding that the rule for use 
of administrative leave at this point precludes payment while 
using that leave. That is the rule for jury duty for which 
administrative leave is provided; and the rule on the use of 
administrative leave, I am told, would be the same for this 
other civic purpose.
    Mr. Lungren. So it would be pursuant to regulation by the 
Office of Personnel Management.
    Ms. Lofgren. Yes.
    Mr. Lungren. Then I would hope that in the committee report 
we would urge the Office of Personnel Management to do that.
    Ms. Lofgren. I think that is a good suggestion.
    Mr. Lungren. The second thing, in your presentation, you 
said this adds nothing in terms of--I believe you said adds 
nothing in terms of an additional cost to the Federal 
Government because we are just adding another basis upon which 
people can use administrative leave. But, as I read it, this is 
administrative leave up to and including 6 days a year without 
loss or reduction in pay, leave or--to which someone is 
otherwise entitled. So, as I understand it, this does add an 
additional potential 6 days of administrative leave that does 
not currently exist, is that not correct?
    Ms. Lofgren. I think you are correct. You are correct, and 
I stand corrected.
    Mr. Lungren. So, in essence, what we are suggesting is an 
additional potential 6 days as long as they used it for this 
purpose.
    Ms. Lofgren. It is not an additional cost, but it is an 
additional reduction in service, essentially, because these are 
salaried individuals, and you are correct.
    Mr. Lungren. I would argue that if you have people who are 
not working for 6 days for your job you probably have to pick 
it up somewhere else. If I have got an employee and it doesn't 
matter whether they show up for 6 days or not, maybe that 
employee doesn't need to be there. In most cases, they do need 
to be there, and they have to have someone to take up the 
slack. So I just wanted to make it clear that this is not 
without some expense to the Federal Government when you are 
adding 6 additional days.
    As I understand it now, they would be prohibited from using 
6 days administrative leave, but they could use 6 days of 
vacation or--well, they could use vacation days.
    Ms. Lofgren. People can use vacation days whichever way 
they wish. It is also subject to scheduling.
    But the EAC has called for--if the gentleman would yield--
recruiting 2 million poll workers for this November; and I am 
feeling--I think we all do--a sense of urgency that we as a 
Nation are going to be able to respond to this incredible 
event.
    Mr. Lungren. And this would be training as well as actual 
service as a poll worker, is that correct?
    Ms. Lofgren. Pardon me?
    Mr. Lungren. This would include training time as well as 
service as an actual poll worker?
    Ms. Lofgren. Yes.
    Mr. Lungren. I thank the gentlelady. I thank the chairman.
    Mr. Ehlers. It seems to me there are a lot of details here 
that we are not quite sure on yet. And I would like to ask that 
the negotiations on the first item I brought up, that is, the 
length of time in the paperwork reduction, that in addition we 
discuss the other issues that may come up today, as I believe 
we need some clarification on this point.
    Ms. Lofgren. If the gentleman would yield, I would be happy 
to. I think any further productive discussion would be 
warranted and useful.
    Mr. Ehlers. If we can agree to work together and try to 
develop a manager's amendment that would clarify it, I think we 
would feel much better.
    Ms. Lofgren. I think that a lot of these issues are 
actually covered by the personnel policies, but we can flesh 
that out to our satisfaction.
    The Chairman. The Chair recognizes Ms. Lofgren for the 
purpose of making a motion.
    Ms. Lofgren. Mr. Chairman, I move to report H.R. 6339 
favorably to the House with an amendment, and noting the 
addition to the committee report that Mr. Lungren had.
    The Chairman. The question is on the motion. All those in 
favor, signify by saying aye. Any opposed? With one opposition.
    In the opinion of the Chair, the ayes have it.
    The bill will be reported to the House without objection, 
and the motion to be considered is laid upon the table.
    The next item is H.R. 6474, introduced by Ms. Lofgren. The 
bill would authorize the Chief Administrative Officer of the 
House to carry out a series of demonstration projects to 
promote the use of innovative technologies in reducing energy 
consumption and promoting energy efficiency and cost savings to 
the House of Representatives.
    I would like to recognize Ms. Lofgren for an opening 
statement.
    Ms. Lofgren. Thank you, Mr. Chairman.
    This bill would authorize the CAO to carry out 
demonstration projects to promote the use of innovative 
technologies in reducing energy consumption and promoting 
energy efficiency and cost savings to the House. It authorizes 
the CAO to enter into contracts consistent with current House 
Administration regulations and requires a report to be 
submitted to the House Administration and Appropriations 
Committee analyzing the project in the extent that it reduced 
energy consumption and promoted energy efficiency and cost 
savings to the House.
    It authorizes $5 million for each of the fiscal years 2009 
and 2010 to carry out the projects until expended, or $10 
million over 2 years. It is limited in scope. It is to help the 
House determine which technologies are best suited to its 
needs.
    Not only would this further prove our commitment to 
environmentally sustainable practices, but it could also lower 
the cost of House operations, a significant savings for 
taxpayers.
    On April 28, 2008, I hosted a panel discussion and meeting 
with Silicon Valley industry leaders titled, How Going Green 
Saves Money, Jobs and Improves Lives at the Tech Museum of 
Innovation in San Jose. At the panel discussion, the private 
sector and the public sector shared the steps that they are 
taking to reduce their carbon footprint by creating new ways to 
use energy more efficiently and generate power in more 
sustainable ways.
    The benefits of going green are not limited to improving 
the environment. Companies have also improved efficiency and 
lowered costs.
    Applied Materials, a company I am very proud of in our 
community, estimates that by installing solar panels it will 
create 900 jobs.
    Adobe Systems, which has just shy of one million square 
feet in downtown San Jose, installed 23,000 sensors on their 
office towers and was able to monitor and control electricity 
consumption. The sensors paid for themselves in 8 weeks' time 
for Adobe, and the entire move that Adobe made to get the 
highest rating of energy efficiency paid for itself in 18 
months.
    So there is tremendous opportunity in the retrofitting of 
buildings, the use of new technology to save a tremendous 
amount of energy and, therefore, to save a tremendous amount of 
money.
    Adobe also made the switch to nontoxic cleaning products, 
which saved them money and kept their cleaning crew healthier 
and also spared Adobe employees from harmful effects of being 
exposed to noxious fumes.
    At our request, Chief Administrative Officer Dan Beard 
attended the discussion. Because Silicon Valley is ground zero 
on what is happening on the pivot of technology to a green 
economy. And with the cooperation of his office I believe that 
the straightforward, innovative recommendations that we made as 
a product of the report, the report that we have, would help in 
the sustainable operations for the House community.
    I am proud to say that this is a bipartisan measure, and it 
is also a measure that has attracted the support of not only 
the authorizers but the appropriators, something that isn't 
always the case. I was happy that Mr. Wamp of Tennessee was 
eager to work on this with me.
    I have been made aware only this morning--and I don't know 
the details, and I hope it will not be part of the discussion 
today because it is a personnel issue, not a policy issue--that 
there is some angst about the individual who currently holds 
the position. But this is a policy issue on whether we can 
allow innovation to occur in a rapid manner that I think and 
hope we can all support.
    And with that I would thank the chairwoman for his 
introduction and yield back.
    The Chairman. Thank you.
    I would like to recognize the ranking member, Mr. Ehlers, 
for an opening statement.
    Mr. Ehlers. Thank you, Mr. Chairman.
    I certainly support the spirit of this bill; and I must 
say, in spite of an article which appears to have been planted 
which questions my green credentials, I have been conserving 
energy for over 30 years. I am a physicist. I know a lot about 
energy, and I have applied that knowledge.
    I have spent a considerable number of hours crawling around 
my attic to properly insulate it, because it seems even the 
insulators who get paid to do it don't understand how to really 
do it right, and I cut one-third off my heating bill every year 
because of the work that I did. Now, if you live in Michigan, 
that is substantial. That is about a $400 savings every year. 
Certainly worth doing.
    I drive a hybrid automobile. I have just every way possible 
tried to conserve energy, and so I am entirely in agreement 
with the spirit of this.
    But what I question is why would we give financial 
resources to the CAO to do this. We have already by law in this 
House and Senate charged the Architect of the Capitol with very 
stringent requirements that he has to meet with regard to 
energy efficiency requirements. He has worked very hard on 
those. He has made considerable progress. He has done it 
without publicity or press releases. And perhaps we should 
publicize what he has done, or at the very least we should ask 
him to appear before this committee and give us a review of 
what he has accomplished and what he would do.
    So I will be offering an amendment that will replace the 
CAO with the Architect of the Capitol and also increase the 
amount allocated from the $5 million to $10 million each year 
for the next 2 years.
    This is a very important issue. I support it. There is an 
immense amount we can do around the Capitol and particularly 
the House to conserve energy.
    If I take my own office, for example, currently, it is 
operating between 70 degrees and 71 degrees. I see no reason in 
the world to keep it that cool. I have it turned to the maximum 
high temperature that I can with the air conditioner in my 
office. It drives me crazy. I would be happy to work in an 
office that is 74, 75, maybe even 76 degrees, no problem. Just 
think of how much energy we would save. And then multiply that 
by all the offices around here. We would save a considerable 
amount of energy just on that.
    I see endless opportunities around this campus for 
conserving energy, and I say let us do it. But we have already 
given the job to the Architect of the Capitol. I am not sure 
why we would want to give it to the CAO, unless we do it in a 
fashion that says the CAO is to lend all possible assistance to 
the Architect of the Capitol in achieving the goals that have 
already been established for him.
    So I am opposed to this bill as it is written, simply 
because it is the wrong approach and it will cost us more than 
necessary, given the fact we already have an organization 
working on this problem.
    With that, I yield back.
    The Chairman. I thank the gentleman.
    Yes, Ms. Lofgren.
    Ms. Lofgren. I move to strike the last word----
    The Chairman. You are recognized for 5 minutes.
    Ms. Lofgren [continuing]. And to oppose the amendment. The 
bill is just----
    The Chairman. Let me call the bill up first.
    I now call up and lay before the committee H.R. 6474--That 
was the opening statement.
    And I would like to commend my ranking member for keeping 
his thermostat on 74. I wish I could. Mine doesn't work, so I 
can't keep it on that. I am at the will of anybody that wants 
to heat or air condition my office. But we have to look into 
that.
    I now call up and lay before the committee H.R. 6474. 
Without objection, the first reading is dispensed with and the 
bill is considered as read and open for amendment at any point.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    
    The Chairman. I believe the committee relies upon the CAO 
to place the highest priority on projects that are cost-
effective on increasing energy efficiency and reducing 
greenhouse gas emissions. So I would now like to recognize for 
5 minutes the gentlelady from California.
    Ms. Lofgren. Mr. Chairman, I think procedurally I jumped 
the gun, because Mr. Ehlers wanted to--he has discussed his 
amendment and probably wants to officially record----
    The Chairman. I will recognize the ranking member for any 
amendments that he may have.
    Ms. Lofgren [continuing]. Before the committee.
    Mr. Ehlers. Mr. Chairman, I offer an amendment in the 
nature of a substitute.
    The Chairman. Without objection, the amendment is 
considered as read.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Ehlers. And the sense of the amendment is pretty much 
as I have described, to simply take the text of the bill but 
modify it so that the assignment for the work to be done is 
given to the Architect of the Capitol.
    Ms. Lofgren. Mr. Chairman----
    The Chairman. I recognize the lady from California.
    Ms. Lofgren. I strike the last word.
    The Chairman. You are recognized for 5 minutes.
    Ms. Lofgren. I oppose the gentleman's amendment.
    I do commend him for his efforts in saving energy in his 
office, and I have a suggestion. We could save some energy in 
this room if we would turn the air conditioning up. I mean, 
this is the coldest room in the Capitol. I can't understand why 
it is this cold. So that is a suggestion that we can all make.
    But on the amendment itself, this bill, the Lofgren-Wamp 
bill, is for a pilot program. It is not involving changes to 
House facilities. The CAO is tasked with the Green the Capitol 
Program, not the Architect. And the Architect is only putting 
in meters. I mean, they are not really--they are not aggressive 
on this. It took a letter from the Speaker and the language of 
the December '07 energy bill to get them off the stick to start 
putting in meters. The Department of Energy estimated it could 
be done for under $1 million in 3 months, but the Architect 
wants to take a year and spend over $3 million. And we need a 
quicker, more aggressive pilot project to see what can happen.
    I will note that when we checked with the private sector 
and we sent a report on this form we had in Silicon Valley, 
that you can do this stuff quite promptly and save a lot of 
money. And this was--we had Mr. Lungren's constituent, the 
Marquiss Wind Power participated.
    And the ability to move quickly is what this bill is all 
about. When Adobe put in their sensors, I mean, it was massive, 
it was quick, and it paid for itself in 8 weeks.
    And we can't wait for a pilot project to take a year. It is 
just unnecessary. And we will find out, because Mr. Wamp 
suggested this, and I thought I incorporated his request, that 
we will get reports both to the Appropriations Subcommittee and 
to this committee on how these pilots are working so that we 
will be able to monitor our success or if we are not meeting 
with success. And I think that that is something I look forward 
to.
    And we know that we have an energy--we all know that we 
have an energy challenge in this country. But the quickest hit 
is conservation. And what has been done on the private sector 
is astonishing and what is going to be doable in even the next 
6 months is terrific.
    So I want us to be part of the process of being life, of 
being agile, of taking these steps as a pilot project so that 
we can be leaders; and it is clear that the CAO is able to do 
that. The Architect has a very different role to play; and I 
therefore, with respect, oppose the gentleman's amendment.
    Mr. Ehlers. Mr. Chairman.
    The Chairman. I recognize Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    First of all, I will agree that--and I have preached this 
for years because my dad was a preacher so I have inherited 
that characteristic--but there is no quicker, cheaper way to 
resolve energy issues in this country, including gasoline 
prices, by the way, than conservation. There is no question 
about that.
    I have to rise to the defense of the Architect when you say 
he hasn't done anything. He has reduced the energy consumption 
on this campus by 6 percent each of the last 2 years. That 
means we are down 12 percent already. Can we do more? Of 
course. We are going to have to appropriate a lot of money to 
do that, and I think part of the problem the Architect has is 
we have given him the task but not a great deal of money to 
really attack it vigorously. He has to work within his budget. 
But, nevertheless, 12 percent reduction in 2 years' time, that 
is very commendable.
    And before we run off half-cocked and say we are going to 
do it a different way with different people, at the very least 
we should know what the Architect is doing and what he has 
accomplished already. And I suggest bringing him before the 
committee or just having an informal meeting with interested 
committee members and find out from him what he has done, what 
remains to be done, how we could speed it up, and what role the 
CAO can play in helping this happen.
    But to simply toss the ball to the CAO without recognizing 
what is going on and making sure that everything meshes, 
particularly since I am not--and I have been very, very careful 
not to criticize the CAO publicly in spite of the fact we have 
had some differences--but since this has come up here I do have 
to comment that paying $700,000 just to develop a plan for the 
lighting of the Dome, that is called the greening of the Dome, 
when the annual electricity bill for that is only about $13,500 
or something, why would we spend $700,000 to examine a problem 
like that?
    There are a lot worse problems, as have been mentioned 
here. The air conditioning in these buildings. If we are going 
to spend $700,000, let us combine it with the Architect and see 
what we can accomplish.
    I just don't think it makes sense to have two different 
entities working on the same problem, using our money and 
without any coordination, without having them work closely 
together. And I urge the adoption of my substitute.
    The Chairman. Mr. Lungren.
    Mr. Lungren. Mr. Chairman, I rise in support of the 
substitute.
    Mr. Chairman, as the largest single energy consumer in the 
United States, the Federal Government, beyond the House of 
Representatives, has both a tremendous opportunity and a clear 
responsibility to lead by example with smart energy management, 
as the gentlelady from California has suggested. And while the 
government has made some considerable progress improving its 
use of energy, even here at the Capitol, much more remains to 
be done. All you have to do is walk by at night and see all the 
lights that are left on. If you just had motion switches rather 
than manual switches, we could probably save a considerable 
amount in the House of Representatives without having to do a 
study on it.
    In general, I like the concept of this resolution because 
it is pushing the envelope to pursue cleaner and renewable 
energy in an efficient manner. I think it is important for us 
to try and do everything we can to increase energy savings and 
production in an environmentally friendly and stewardship-
minded fashion; and I have worked with the gentlelady on a 
number of issues, including a couple of them coming up later 
today.
    But I am not sure if I can support this measure without the 
Ehlers amendment. My concern is that it provides very broad 
authority of the CAO, does not specifically state what projects 
will be executed, nor require any coordination with the 
Architect of the Capitol who is, we must be reminded, our 
facility manager. It does not provide a return on investment 
standard, plus it might conflict with the Architect's ongoing 
contractual or planning efforts.
    I know the Architect of the Capitol has an overall campus 
master plan along with numerous low-hanging fruit energy 
projects sitting on the shelf ready to execute with known 
returns on energy savings which would make a significant 
difference. They also have an ongoing energy saving performance 
contract, plus several in the works. I would hope that this 
legislation coordinates with that, rather than interferes with 
that.
    I have done numerous telephone town halls in the last 
couple of months, and one of the biggest complaints I hear from 
my constituents is we are not doing enough to resolve America's 
energy issues. This bill is in some ways a baby step in the 
right direction, but I think folks want us to be 
transformational here.
    I looked it up and found that the Federal Government will 
spend at least $2 billion over the next 10 years on energy 
expenditures for electricity, natural gas, coal and fuel oil 
for more than 120 large facilities, including at least two 
major utility plants in our Nation's Capitol just here, Federal 
buildings, $2 billion. And we have had some discussions with 
the executive branch, GSA and others, and wondered if it would 
make sense for us to try and get together with the power plants 
we have here with the rest of the Federal establishment and see 
if we can conserve energy to make it more efficient and build 
some redundancy in the system.
    I also found that it is extremely difficult for our branch 
to be talking with the executive branch or even the executive 
branch's various departments to be talking with one another, 
and we are wasting a tremendous amount of energy as a result of 
that. So I would ask the Chairman, might we consider a hearing 
on this issue that would broaden it a little bit such that we 
could entertain some suggestions from the Department of Energy, 
from others, to see if we might be able to have some 
compatibility and maybe some cooperation? You would think that 
has happened before, but my investigation suggests it hasn't 
and it probably won't happen unless we urge it to occur.
    The Chairman. I would have no problem entertaining that and 
having the right and proper people come in from all the other 
organizations that can help us try to conserve our energy. We 
will start with having somebody come to my office and fix my 
thermostat.
    Mr. Lungren. Very good. Thank you.
    Mr. Ehlers. Will the gentleman yield?
    Mr. Lungren. I will be happy to yield.
    Mr. Ehlers. I just want to tag on to that.
    I totally agree with the comments made. I would love to 
seriously address the energy consumption of the Capitol. I 
would love to carry it even beyond that to whatever extent we 
have jurisdiction.
    We just don't take this problem seriously as a government, 
as a Nation, and it is crucial. It is absolutely crucial. The 
gas price issue now is bringing it home that we do not have an 
infinite supply of energy, and we have to develop new sources, 
alternative sources, and we have to use what we have wisely and 
conserve as much as we can.
    I would love to have a complete examination of the type 
that Ms. Lofgren has described is taking place in California. 
This bill doesn't do it. And I would be happy to work with the 
author of the bill and make it more comprehensive, make it 
really hard-hitting and really get the job done.
    We talk about air conditioning in this room and our 
offices. There are endless examples I see around here where we 
can make substantial changes with not much money and certainly 
things that will pay themselves back. But this bill is not the 
answer.
    Mr. Lungren. I thank the gentleman for the time.
    The Chairman. You are welcome.
    The question is on Mr. Ehlers' amendment in the nature of a 
substitute to H.R. 6474. All those in favor, say aye. All those 
opposed, say no.
    Mr. Ehlers. Ask for a recorded vote.
    The Chairman. In the opinion of the Chair, the noes have 
it.
    We ask for a recorded vote. Would the clerk please call the 
role.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Yes.
    The Clerk. Mr. Lungren.
    Mr. Lungren. Yes.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Brady.
    The Chairman. No.
    The yeas are three; the noes are five. The amendment fails.
    Mr. Ehlers. Mr. Chairman, I have another amendment.
    The Chairman. Yes, the Chair recognizes Mr. Ehlers for his 
amendment.
    Mr. Ehlers. My second amendment would be----
    The Chairman. Without objection, the amendment is 
considered as read.
    [The information follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Ehlers. Thank you.
    The second amendment is: Page 2, insert after line 21 the 
following:
    Role of Architect of the Capitol. If a demonstration 
project under this section includes a modification of any 
building or grounds under the jurisdiction of the Office of the 
Architect of the Capitol, the Chief Administrative Officer 
shall consult with and obtain the approval of the Architect of 
the Capitol before the modification is made.
    And some minor technical amendments with that. I urge the 
adoption of the amendment. This would ensure they work together 
appropriately.
    The Chairman. Any further discussion on the amendment?
    Ms. Lofgren. Mr. Chairman.
    The Chairman. Yes, Ms. Lofgren.
    Ms. Lofgren. Briefly.
    The purpose of the bill that Mr. Wamp and I have introduced 
is for short-term pilot projects done quickly to show us how we 
can get substantial savings in energy in a quick time period. 
Although I am sure that the motivation of the gentleman's 
amendment is the very best, I believe that the additional 
requirements would simply slow down progress on this and really 
prevent the success that Mr. Wamp and I hoped would be the 
product of this bill. And, therefore, I do oppose the amendment 
while respectfully recognizing that the motivation is the best; 
and I would yield to Mr. Ehlers.
    Mr. Ehlers. Thank you. Thank you for yielding.
    Frankly, whether we adopt it or not, this is going to 
happen. The CAO, I don't believe, is going to be able to 
perform modifications of the buildings on the grounds because 
all of that is already under the jurisdiction of the Architect 
of the Capitol; and so it is just recognizing the 
responsibilities that have already been entrusted to the Office 
of the Architect of the Capitol.
    So I am disappointed that you are not willing to accept it. 
It is just saying, this is the way it is, folks. It has always 
been that way, and the CAO should be able to work with this.
    Ms. Lofgren. Reclaiming my time.
    The gentleman makes my point. There is an existing 
requirement that there be coordination. Creating still another 
permission process I think would slow down what Mr. Wamp and I 
hope to achieve with this pilot project bill, and that is why I 
do not support it.
    Mr. Ehlers. If the gentlelady would yield.
    Ms. Lofgren. I would be happy to yield.
    Mr. Ehlers. I am trying to prevent cowboy action here, 
where someone says, good grief, we are going to do this, and 
bingo, and it is in contradiction with what the Architect of 
the Capitol is doing. I am trying to avoid that conflict.
    Ms. Lofgren. I would yield back, Mr. Chairman.
    The Chairman. The question is on Mr. Ehlers' amendment 
number two to H.R. 6474. All those in favor, say aye. All those 
opposed, say no.
    In the opinion of the Chair, the noes have it.
    Mr. Ehlers. Roll call vote.
    The Chairman. I would like to ask the clerk for a roll call 
vote, please.
    I apologize, we have one--this is amendment number three. 
Mr. Ehlers, we are voting on for a roll call right now. The 
clerk will call the roll.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Aye.
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Brady.
    The Chairman. No.
    The noes are five; the ayes are three. The amendment fails.
    Hearing no other amendments, I would like to recognize Ms. 
Lofgren for the purpose of making a motion.
    Ms. Lofgren. Mr. Chairman, I move to report H.R. 6474 
favorably to the House.
    The Chairman. The question is on the motion. All in favor, 
signify by saying aye. Any opposed?
    In the opinion of the Chair, the ayes have it, and the bill 
is reported to the House without objection, and the motion is 
considered.
    Mr. Ehlers. I am sorry. You zipped by my third amendment.
    The Chairman. I am sorry. You have another amendment?
    Mr. Ehlers. Yes.
    The Chairman. We will go back and hear Mr. Ehlers----
    Ms. Lofgren. I ask unanimous consent to withdraw my motion 
to report.
    The Chairman. Until we move the motion--unanimous consent 
to hold the motion to report the bill out for Mr. Ehlers' 
amendment number five--we are back to number two. Number two we 
skipped.
    [The information follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    
    The Chairman. Okay. Mr. Ehlers is recognized.
    Mr. Ehlers. Thank you, Mr. Chairman.
    This is just a very simple amendment reinforcing the 
responsibilities of the Chief Administration Officer. And it 
simply says that, in carrying out such projects, the Chief 
Administrative Officer may, upon approval by the Committee on 
House Administration, enter into contracts with entities which 
have developed new methods of using energy more efficiently, 
generating electric power in a more sustainable manner, or 
improving the efficiency and lowering the costs of existing 
renewable power systems, in strict adherence to the regulations 
promulgated by the Committee on House Administration for 
contracts entered into by the Chief Administrative Officer in 
order to ensure best value for the House of Representatives.
    This is just reinforcing what is currently the requirement 
on the Chief Administrative Officer, and this is I think 
important to insert in because we have had a recent example 
where he has negotiated something after we have approved a 
contract without seeking our approval for the revisions to the 
contract. So I urge that we adopt this and make clear what the 
requirements of our contractual process are.
    The Chairman. The question is on Mr. Ehlers' amendment 
number two to H.R. 6474. Those in favor, signify by saying aye; 
those opposed, no.
    In the opinion of the Chair, the noes have it.
    Mr. Ehlers. A roll call.
    The Chairman. A roll call is requested. The clerk will call 
the roll.
    Mrs. Davis of California. Can I just clarify? This is 
existing today, correct?
    The Chairman. Yes.
    The clerk will call the roll.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    [No response.]
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Aye.
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Brady.
    The Chairman. No.
    The noes are four; the ayes are three. The amendment is not 
adopted.
    I would now like to recognize Ms. Lofgren for the purpose 
of making a motion.
    Ms. Lofgren. Mr. Chairman, I move to report H.R. 6474 
favorably to the House.
    The Chairman. The question is on the motion. All those in 
favor, vote aye. Those opposed, no.
    In the opinion of the Chair, the ayes have it.
    Mr. Ehlers. Roll call.
    The Chairman. We would like to have a roll call. The clerk 
will call the role.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. Aye.
    The Clerk. Mr. Capuano.
    Mr. Capuano. Aye.
    The Clerk. Mr. Gonzalez.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. Aye.
    The Clerk. Mr. Davis of Alabama.
    [No response.]
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. No.
    The Clerk. Mr. Lungren.
    Mr. Lungren. No.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. No.
    The Clerk. Mr. Brady.
    The Chairman. Aye.
    The ayes are four, the nays are three, and the bill without 
objection passes. The motion will be considered as laid upon 
the table.
    Mrs. Davis of California. Mr. Chairman.
    The Chairman. Yes.
    Mrs. Davis of California. There may be an opportunity at 
some point, I am not sure that within this session because 
things are running down, but I certainly would be delighted to 
listen to both the Architect and the CAO together talk about 
what they have done. I think they are coordinating, and so it 
would be good to just hear some of that interplay as well. I 
think that would be a concern. I would like to make our mark on 
that.
    The Chairman. We will do that. We will do that as soon as 
possible. I do not think we can get that done before Friday.
    Mr. Lungren. Unless you want to stay here.
    The Chairman. Oh, I love it here. I love it in my hot 
office, yes.
    But we will try to get that done. I will work to get that 
done before we do break for our November break.
    The committee will now take up H.R. 6475, a bill introduced 
by Ms. Lofgren and Mr. Lungren to establish the Daniel Webster 
Congressional Clerkship Program.
    I would like to recognize Ms. Lofgren for an opening 
statement.
    Ms. Lofgren. Thank you, Mr. Chairman.
    This bill, the Daniel Webster Congressional Clerkship Act, 
has been introduced by myself and Congressman Lungren. It 
provides for congressional clerks to serve in various offices 
of the House and Senate. When legislation was introduced last 
year by Mr. Lungren, it had the support of many of the Nation's 
top law schools.
    I would note that clerks are selected for the other 
branches of government, and these are prestigious posts where 
the top graduates of law schools across the country aspire to 
serve. The House has not had the equivalent clerkship.
    These clerks would be chosen from a pool of law school 
graduates who possess excellent academic records and who have 
demonstrated a commitment to public service and a strong 
interest in public policy. It creates a selection committee 
comprised of the Senate Committee on Rules and Administration 
and the Committee on House Administration to select no more 
than six congressional clerks to serve as employees for a 1-
year period in their respective chambers. Clerks will be 
compensated at the same rate as judicial clerks in the U.S. 
District Court for D.C.
    As you may know, many law school graduates, top law school 
graduates begin their legal career as judicial law clerks; and 
these law clerks go on to become leaders of their profession in 
private practice or later serving as judges or as law 
professors. The Daniel Webster Congressional Clerkship Program 
will do a lot, we believe, to improve understanding and 
appreciation of the legislative process within the legal 
profession and in the country as a whole by providing leaders 
of the legal profession their first formative experience in 
Congress. And given that clerks in the judicial branch often go 
on to become judges themselves I think it is particularly 
important that there be an appreciation for the legislative 
branch for high-quality clerkships.
    I don't know whether Mr. Lungren would like his own time. I 
would be happy to yield to him for his comments.
    Mr. Lungren. Thank you.
    The Chairman. Mr. Lungren is recognized.
    Mr. Lungren. I appreciate that, and I thank the gentlelady 
from California for working with me on this bill.
    The genesis of this bill was a visit I received from the 
Stanford University Dean of the Law School probably 2 years 
ago. His name is Larry Kramer.
    While he has great respect for the judiciary and judges, he 
also has tremendous respect for the legislative branch; and so 
these are his words: Clerking for a trial or appellate judge 
provides young lawyers with an invaluable insider's 
understanding of the decision-making process. Not surprisingly, 
judicial clerkships leave young lawyers with a highly court-
centered view of the law and the legal system; and precisely 
because these are the top law school graduates, former law 
clerks go on disproportionately to assume leadership positions 
in the bar and in the profession, explaining in part why the 
legal profession in this country is so heavily tilted towards 
the courts.
    And what he was trying to convey as a dean in one of the 
outstanding law schools in the United States was that it is 
frustrating to him to see that lean towards the courts and not 
a proper balance to the other branches of government, 
particularly the legislative branch, not to any animus on the 
part of these individuals but because of their experience.
    And his thought was if we had a comparable experience in 
the legislative branch to which top graduates of our law 
schools would aspire that would help introduce a different 
experience path for some of these outstanding young people and 
he thought over time would result in a greater respect for the 
work that we do.
    I am reminded of a conversation of a member of the United 
States Supreme Court some years ago when, in a discussion on an 
issue that the Court decided, a particular individual after the 
Court had decided said, well, why did you decide that way? 
Congress clearly intended something else.
    And the response of this member of the Supreme Court was, 
well, Congress never considered that.
    To which this person who had studied the issue said, well, 
yes, they did. As a matter of fact, there was a colloquy on the 
floor of the House about that very issue.
    To which this member of the Supreme Court said, oh, that 
doesn't matter. They don't write their own stuff, anyway.
    Now that is maybe just an anecdotal example, but it 
evidences a lack of appreciation for the work that we do. And 
this is just a small thing that we can do that I think may 
begin to address it.
    No fewer than 12 clerks per Congress would be selected to 
serve in the offices of various committee chairs and ranking 
members. It would be highly competitive. It would be 
bipartisan. It would be in the Senate and the House.
    The number of congressional clerks assigned to offices of 
the House will not be less than numbers assigned to the Senate. 
The number assigned to the House and Senate office affiliated 
with the majority party shall be equal to the offices 
affiliated with the minority party. We are trying to make it as 
bipartisan as possible.
    I would hope for unanimous support of this.
    I was pleased that a dean of a law school would come to me 
with this suggestion, recognizing the lack of appreciation for 
the work done in the Congress by many on the court, and I hope 
we can support this.
    Ms. Lofgren. Reclaiming my time, although I was an 
undergraduate at Stanford, the dean of the law school has been 
a great advocate, as my colleague has described. But he is not 
the only advocate. This has received support from top law 
schools across the country.
    Mr. Lungren is correct; it is a way over time for the 
legislative branch to gain a little more clout in the judicial 
ranks than we have today.
    I yield back the balance of my time.
    The Chairman. Mr. Ehlers.
    Mr. Ehlers. Mr. Chairman, I am pleased to support H.R. 
6475, and in the interest of time, I will submit a written 
statement.
    The Chairman. I now call up and lay before the committee 
H.R. 6475. Without objection, the first reading of the bill 
will be dispensed with. Without objection, the bill is 
considered as read and open for amendment at any point.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    
    The Chairman. Any debate? Any amendments?
    If not, I recognize Ms. Lofgren for the purpose of offering 
a motion.
    Ms. Lofgren. Mr. Chairman, I move to report the bill H.R. 
6475 favorably to the House.
    The Chairman. All those in favor, signify by saying aye.
    All those opposed?
    The ayes have it, and the motion is agreed to. Without 
objection, the motion to reconsider is laid on the table and 
the bill is reported to the House.
    The next item is H.R. 6589, introduced by Ms. Lofgren and 
Mr. Lungren, to provide financial support for the operation of 
the Law Library of the Library of Congress; and I would like to 
recognize Ms. Lofgren for an opening statement.
    Ms. Lofgren. Mr. Chairman, this bill, the Charles H.W. 
Meehan Law Library Improvement and Modernization Act, was 
introduced by myself and Congressman Lungren. The bill and the 
private-public partnership embodied within the bill is named 
after Charles Meehan, who was the first Law Librarian at the 
Library of Congress.
    The Law Library of Congress maintains a unique and actually 
world-renowned collection, and this bill will ensure that the 
Law Library will have the resources needed to maintain and 
expand its collections while, at the same time, modernizing its 
systems.
    The act includes $3.5 million for maintaining and 
administering the operations of the Law Library, including the 
cataloging of the collections of the Law Library, which 
unfortunately is way behind and therefore not highly usable at 
the moment. The provision includes language which allows, to 
the extent practicable, efforts to catalog and archive 
nonproprietary material in the collections electronically in a 
nonproprietary and nondiscriminatory format to ensure the 
widest use. It also provides a line item to the Law Library to 
ensure the autonomy and ability to improve the Law Library.
    I would note also we have worked very closely with the 
American Bar Association and other legal groups who want to 
help maintain this Law Library, and it is their judgment that 
when they go out to try and solicit private funds for the 
support of the Law Library, having a line item is going to be 
crucial for them in whether or not they succeed.
    The creation of this program will provide enhanced special 
services for the Law Library, and the Librarian will carry out 
the program through agreements and partnerships entered into 
with other government and private entities.
    As I mentioned, the American Association of Law Libraries 
is joining with the American Bar Association in the effort to 
provide funds, both donations of money and also in-kind 
contributions, in support of the program.
    It requires an annual report, and it authorizes to be 
appropriated for the program an amount equal to 40 percent of 
the amount of the donations accepted by the Library of Congress 
trust fund in support of the program's 60-40 private-public 
split.
    The Law Library really is an invaluable resource, both to 
the Congress and the Nation, and I think we have an obligation 
to future generations to provide for its continuation through 
the establishment of the Charles H.W. Meehan program. Not only 
does it have the ABA and the American Association of Law 
Libraries' support, but probably because of Mr. Lungren and 
myself, the Northern California Association of Law Libraries 
has taken a bold step forward in support of the bill.
    Some have wondered why should we have a law library, but it 
has a unique collection that is unavailable anywhere else in 
the United States and, in some cases, the world. It has been 
neglected. And I want to mention specifically former 
Congressman Bill Orton, who has volunteered and, I think, has 
met with both of us as part of the ABA committee that is paying 
attention to this.
    This is obviously bipartisan and important, and I hope we 
can all support this unanimously.
    I yield to Mr. Lungren.
    Mr. Lungren. I agree with you, the Law Library at the 
Library of Congress ought to be the premier Law Library of the 
Nation because it has the capacity of getting international 
legal journals and texts, as well as those from around the 
country.
    Unfortunately, in the last 10 to 15 years, I fear that 
budget restraints have caused the Library to have to make some 
very tough choices. The Library has had to cancel subscriptions 
and refrain from acquiring important legal materials in order 
to stay within their budget.
    People might say that happens with all libraries, and so 
forth, but the effectiveness of a law library is the timeliness 
of the receipt of the latest legal decisions; and in this case, 
when they are trying to scan the world, that is a difficult 
task.
    In addition, there are approximately 680,000 volumes of 
legal material that we have been informed the library has 
acquired, but has not yet had the resources to catalog and, 
thus, make available to the public. Once again, not timely.
    It is important that the Law Library have adequate funding 
in order to develop, maintain and make available its 
comprehensive and unique legal collections for the future, as 
well as protect its rare and historic materials that chronicle 
our heritage.
    This act addresses these concerns, authorizes immediately 
$3.5 million so it may renew cancelled subscriptions and 
purchase needed treatises, as well as work the catalog and 
classify the materials more quickly.
    Giving the Law Library a separate line item in the Library 
of Congress budget will allow the Law Library to have better 
control over its collection and be directly accountable to us, 
the Congress.
    In addition--and this is important, and I would just like 
to underscore what the gentlelady has said--it allows a 
mechanism for the Library to receive private and charitable 
donations to help with keeping its collection up to date. And 
we have every reason to believe from those who have testified 
before us, as well as those who have talked with us, that this 
will be done.
    There is a recognition of the importance of this library, 
and we think that private and charitable donations will come 
forward.
    The legislation is timely and needed. And for those who 
might be concerned that this sets a precedent for other 
elements of the Library of Congress spinning off, that is not 
my purpose, and I would not support that. I want to make that 
very clear.
    Ms. Lofgren. Reclaiming my time, I agree with that. This is 
not intended to be the first of many line items or changes in 
the structure. This is a unique situation, and I concur that I 
would not be interested in pursuing additional alterations.
    I yield again to the gentleman.
    Mr. Lungren. Therefore, I urge the committee to support 
this, and I thank both the gentlelady and the chairman of the 
committee.
    The Chairman. Mr. Ehlers.
    Mr. Ehlers. Mr. Chairman, very briefly, I just want to say 
that I support the effort of both of our colleagues, 
Congressman Lungren and Congresswoman Lofgren, to augment and 
maintain the Law Library within the Library of Congress. Given 
what we have had with the last two bills and the wonderful 
agreement between the two Members of Congress, perhaps we 
should assign them the job of writing the energy conservation 
bill as well.
    But I do just want to state a caution, and that is, by 
authorizing a separate line item in the Library's budget, we 
are not implying that we wish to begin segmenting other items 
in the Library's budget. Doing so would limit the ability of 
the Library to manage its own resources, and that would be 
unnecessarily bureaucratic.
    With that clarification and understanding, I would be 
pleased to support the bill.
    The Chairman. The Chair now calls up and lays before the 
committee H.R. 6589.
    Without objection, the first reading of the bill is 
dispensed with.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    
    The Chairman. I would like to recognize Ms. Lofgren for a 
technical amendment.
    Ms. Lofgren. Mr. Chairman, I have an amendment that on page 
2, line 6, would strike the word ``building'' from the bill; 
and I believe this is a technical amendment.
    The Chairman. Without objection, the amendment is 
considered as read and the gentlelady from California is 
recognized.
    [The information follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    
    Ms. Lofgren. This is a technical amendment. We are not 
really building anything, we are maintaining and administering. 
We want to clarify that.
    It corrects a jurisdictional issue as well.
    The Chairman. Any further discussion?
    If not, without objection the amendment is agreed to.
    Any further amendments?
    The question is on Ms. Lofgren's amendment to H.R. 6589. 
All those in favor, signify by saying aye.
    All those opposed?
    The ayes have it.
    The Chair recognizes Ms. Lofgren to make a motion.
    Ms. Lofgren. Mr. Chairman, I move to report H.R. 6589 
favorably to the House with an amendment.
    The Chairman. I thank the gentlelady.
    All in favor, signify by saying aye.
    Any opposed?
    In the opinion of the Chair, the ayes have it. The bill 
with the amendment will be reported to the House. Without 
objection, the motion to reconsider will be laid on the table.
    We have a vote, but we will try to get through the next 
bill before the vote.
    The next bill is H.R. 998, the Civil Rights History Project 
Act. And I will forgo all of my statement, and I will submit my 
statement for the record, and I recognize the ranking member, 
Mr. Ehlers, for an opening statement.
    [The statement of Mr. Brady follows:]

             STATEMENT OF CHAIRMAN ROBERT A. BRADY

    The Civil Rights History Project is an important step 
toward completing the recorded history of that important era. 
The Library of Congress and Smithsonian Museum's National 
Museum of African American History will work together on this 
project. They will gather firsthand accounts from the citizens 
who fearlessly fought for equal rights, lending a unique and 
untold perspective to what we already know about the Civil 
Rights Movement.
    Building on the success of the Veteran's History Project, 
the Civil Rights History Project will highlight the efforts of 
those who would otherwise go unacknowledged. We know a lot 
about Martin Luther King, Junior and Rosa Parks, but countless 
others were also involved in securing fair and equal treatment 
for African Americans. This project will tell their story.
    We have a letter from the Library of Congress and the 
Smithsonian explaining how they will work together on the Civil 
Rights History Project. Without objection, I will include that 
letter in the record.
    I would now like to recognize the Ranking Republican 
Member, Mr. Ehlers, for an opening statement.
    Mr. Ehlers. I will also enter my statement in the record, 
but I do want to mention that I am offering a minor amendment 
just to ensure the accuracy of the data, and that is based on a 
lot of experience.
    If you wish, I may go directly into describing the 
amendment.
    The Chairman. I need to call up the bill.
    The Chair now calls and lays upon the committee H.R. 998. 
Without objection, the first reading of the bill is dispensed 
with. The bill is considered as read and open for amendment at 
any point.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    
    The Chairman. And now I would like to recognize Mr. Ehlers.
    Mr. Ehlers. Mr. Chairman, I am pleased to offer this 
amendment.
    [The information follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Ehlers. As many of you have dealt with stories from 
people who have lived through events, often there are 
inaccuracies that appear, and so the amendment just requires 
that they review and, to the extent practicable, verify the 
authenticity and accuracy of the recordings and other materials 
that are obtained; and to create, catalog and index the 
collection of such recordings and materials in a manner that 
the Secretary and Library consider appropriate.
    I urge adoption of the amendment.
    The Chairman. We have the amendment to the Civil Rights 
History Project.
    I respectfully ask for a ``no'' vote on this amendment. 
Rather than going through all of the talking points, I would 
just call for the vote on the amendment.
    Mr. Ehlers. Would the gentleman just summarize the 
objections?
    The Chairman. To verify the recollection of stories and 
experiences of the real-life accounts of those who participated 
in the Civil Rights Movement of the 1950s and the 1960s is not 
the job of the Library of Congress or the Smithsonian 
Institution.
    History is for people to interpret; and mainly, we can't 
ask the Library to insult the dignity of a person by asking 
them to provide documentation of a story of terrible beatings 
or attacks by dogs and fire hoses way back when in the Civil 
Rights Movement.
    And how do you verify? We would be doing it forever and 
forever to have them verify everything that was coming in. In 
some instances, their physical scars still remain. But in 
countless other cases, the emotional scars still exist, and it 
is hard to verify any emotional scars.
    Mr. Ehlers. Mr. Chairman, as the oldest person on the 
panel, I can vouch for the fact that memories weaken as you get 
older. And the verification is simply to get two statements 
from two different sources. Then it is verified.
    This is not an attempt to argue with the authenticity of 
things, but simply to try to accumulate enough data so that 
scholars can find out what is the real story in any given 
event. There is certainly no intent to question the integrity 
of people's memories.
    The Chairman. Again, I respectfully ask for a ``no'' vote 
on this amendment.
    Mr. Lungren. If the gentleman would yield, I would just ask 
Mr. Ehlers: The genesis of this amendment was the experience we 
had, and have, with some of the oral histories dealing with 
veterans, where we had some people making claims they were 
Medal of Honor winners and so forth; and there was a concern 
that there not be an effort by some to have inappropriate 
information here. And that is why Mr. Ehlers drafted this ``to 
verify to the extent practicable.''
    I believe that is the only purpose for his amendment, as I 
understood it, not to require people to relive their histories 
or to put them through third-degree investigation, but rather, 
to try and avoid what we had with the other experience.
    I would just offer that for consideration.
    Mr. Ehlers. If I may give an example, I was with a group of 
veterans once. There were four veterans from the same battle 
who fought side by side, and they started telling their 
stories, and there was constant correction back and forth.
    ``No, Joe, that's not the way it was. Remember, the plane 
came in from over the hill instead of through the valley.''
    ``Oh, yeah, that's right.''
    That is the sort of verification I am talking about.
    The Chairman. And that just proves the point, there is no 
practical way for the Library of Congress to accomplish that, 
in my opinion.
    Mr. Ehlers. It states ``to the extent practicable.''
    Ms. Lofgren. There is a Veterans Administration. There is a 
way to find out whether somebody actually did get the medal or 
not get the medal. I think this is a much more complicated 
question here, which is why I agree with the chairman.
    The Chairman. All those in favor of Mr. Ehlers' amendment 
signify by saying aye.
    Those opposed?
    In the Chair's opinion, the noes have it. The amendment is 
not agreed to.
    Mr. Ehlers, do you have another amendment?
    Mr. Ehlers. Yes. I have a simple amendment to change some 
dates, 2007 to 2008, et cetera, just to extend the timeline and 
give them time to put it together.
    [The information follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    
    The Chairman. This is my amendment, but I could give it to 
you.
    All those in favor, signify by saying aye.
    Those opposed, no.
    Mr. Ehlers. That's the only way I will get one passed.
    The Chairman. You've got this one. The amendment is agreed 
to.
    Any further amendments?
    The chairman moves the committee reports H.R. 998 favorably 
to the House with amendments. All those in favor say aye.
    Opposed, no.
    In the opinion of the Chair, the ayes have it. The motion 
is agreed to, and the bill with an amendment will be reported 
to the House. Without objection, the motion to reconsider is 
laid on the table.
    We will now break to go vote and come back when the votes 
are over.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    
    [Recess.]
    The Chairman. I would like to recognize myself for a brief 
statement on H.R. 6625.
    I am proud to sponsor this bill, which requires the 
Secretary of Veterans Affairs to allow States to designate a VA 
facility as a voter registration agency under section 7 of the 
National Voter Administration Act. In addition, VA facilities 
are required to provide voting information, assist veterans 
with registering as well as voting, and work with election 
officials to ensure proper delivery of voting materials.
    The bill also prohibits the Secretary of Veterans Affairs 
from preventing nonpartisan organizations and election 
officials from providing veterans with voting information at VA 
facilities.
    Our veterans have dedicated their lives to protect our 
country, and many have been seriously wounded doing so. They 
deserve every opportunity to participate in the political 
process.
    Recent policy decisions by the VA that interfere with 
veterans' registration are simply an outrage. This bill would 
direct the VA to provide the voting assistance our veterans 
deserve and ensure that those with the most expertise and 
election officials and nonpartisan voter education groups can 
assist them in the voting process.
    Without objection, I would like to enter into the record 
some letters of support received from groups that represent 
over 6 million veterans and hundreds of thousands of concerned 
citizens.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    
    The Chairman. I will now recognize the ranking member, Mr. 
Ehlers, for an opening statement.
    Mr. Ehlers. Thank you, Mr. Chairman. As I have often stated 
in the past, I believe it is extremely important that we ensure 
that every vote is counted and that every eligible person is 
able to cast a ballot and that no one's vote is weakened by 
someone else casting an illegal vote.
    As a part of that effort, I am pleased to join Chairman 
Brady in support of this bill which would designate veterans' 
facilities as voter registration agencies. Doing so will allow 
those who have risked their lives for our freedom an 
opportunity to register to vote and make their voices heard.
    I do wish we had had the opportunity to have a full hearing 
on this bill, rather than having it introduced yesterday and 
then marking it up today. This is an important issue, and I 
would have preferred we receive testimony from the relevant 
parties on both sides as to the potential impact of this bill 
before we vote on whether or not to move it forward.
    In particular, one of my main concerns with this bill is 
the language that states that nonpartisan groups may have 
reasonable access to veterans in order to encourage voter 
registration. The word ``reasonable'' means different things to 
different people, and I would hate to see a veteran who wishes 
to convalescence in a private setting be intruded upon by an 
activist from a voter registration group, however well-
intentioned they may be.
    I would ask that we more clearly define the boundaries that 
are considered reasonable, or strike this language altogether 
to prevent these types of interactions or intrusions from 
occurring.
    Thank you, Mr. Chairman. I reserve the balance of my time.
    The Chairman. Thank you.
    Ms. Lofgren.
    Ms. Lofgren. Mr. Chairman, if I may make a brief comment, 
thanks for the bill.
    And in support of your bill, I think it was in my county 
that, at least as far as I am aware, this first came to a head 
when volunteers attempted to register veterans at the Palo Alto 
VA hospital and were turned away. Those volunteers have now 
sued the Veterans Administration. And as your letters indicate, 
the veterans groups support what you are doing here.
    So I appreciate that if we succeed here, we will avoid the 
need for litigation to resolve this and we will legislatively 
make sure that our veterans get the help they deserve and need.
    I yield back the balance of my time.
    The Chairman. I thank the gentlelady.
    I call up and lay before the committee H.R. 6625. Without 
objection, the first reading of the bill is dispensed with. 
Without objection, the bill is considered as read and open for 
amendment at any point.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    
    The Chairman. Any debate? Amendments?
    Mr. Ehlers. Mr. Chairman, I have an amendment at the desk.
    The Chairman. Without objection, the amendment is 
considered as read.
    [The information follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    
    The Chairman. I recognize the ranking member for 5 minutes.
    Mr. Ehlers. Well, this amendment would strike from section 
4 of the act language requiring VA facilities that are 
designated as voter registration agencies to make available 
absentee ballots upon request.
    Although we question the propriety of imposing upon 
veterans facilities additional burdens beyond those required of 
other NVRA section 7 voter registration agencies, we are aware 
of the potential for fraud inherent in absentee voting. And I 
can give numerous examples of that if you wish.
    We do endorse full enfranchisement of our Nation's veterans 
and, where appropriate, via absentee voting. Accordingly, we 
believe that those who are eligible to vote absentee under the 
laws of their State should be offered absentee ballot 
applications at voter registration agencies.
    However, we do not support the notion of VA facilities, 
which are Federal offices, administering elections by having 
absentee ballots on site for disbursement to voters by VA 
personnel. Such ballots should be sent to the voter by a State 
or local election official pursuant to State law.
    Therefore, under the language of this amendment, VA 
facilities that are designated as voter registration agencies 
under NVRA section 7, would still be required to provide 
information relating to the opportunity to request an absentee 
ballot and make available absentee ballot applications and 
provide assistance in completing such an application.
    In other words, I am encouraging absentee balloting, but 
absentee ballots should not be available and kept on hand at a 
facility; they should always be under the control of an 
election facility until they are mailed out to the appropriate 
person requesting them.
    I offer this amendment.
    The Chairman. I thank the gentleman.
    Any statements in reply?
    Ms. Lofgren.
    Ms. Lofgren. Mr. Chairman, although I don't doubt the good 
intentions of the amendment, I think that the amendment would 
weaken a very good bill. I think that our veterans have risked 
life and limb to protect our freedom and the right to vote; 
especially soldiers who returned home impaired because of 
injury should have whatever help is necessary.
    The Chairman. I thank the gentlelady.
    I also agree that these men and women fought for us. There 
could be some loss of sight and mobility, and maybe they cannot 
get to register or to an agency that will provide an absentee 
ballot. I don't see anything wrong with the absentee ballot 
being made available to them, done in a proper way; and I don't 
see why we can't allow them to fill out the absentee ballot 
with a nonprofit or with somebody from their veterans home that 
would assist them, just like on that ballot, they would ask for 
assistance if they got an opportunity to vote, and if not, they 
would be able to vote via absentee ballot.
    So I would ask for a ``no'' vote on this amendment.
    Mr. Ehlers. Mr. Chairman.
    The Chairman. Yes.
    Mr. Ehlers. Just continuing on with my comments, I don't 
know, perhaps you misunderstand what I am saying here. I am not 
disagreeing with you.
    The facility should provide applications for persons to 
apply for an absentee ballot. An institution should assist 
veterans in filling out the forms and putting it in the mail. 
And once it is received, the facility should assist the 
veterans in looking at it and, if necessary, assist them in 
voting if they are incapacitated in some way.
    The objection is simply to having a stack of absentee 
ballots in the facility. I don't know of any other place which 
would just allow a stack.
    For example, a nursing home is very similar. No one would 
ever think of having the local clerk of elections drop off 100 
absentee ballots at a nursing facility and say, Here, give them 
to whoever wants them, and they can fill them out.
    There is a process under State law by which absentee 
ballots are processed. Every State has their own law. I believe 
that the VA facility should operate under State law just like a 
nursing home would.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. Mr. Chairman, under section 7 of the Voting 
Rights Act, it actually requires assistance agencies--I don't 
know if the VA is included--to actively go out and recruit 
voters. I think, whether or not--and I can't do this from 
memory--they are included, certainly the spirit of what is 
intended in NVRA is honored by the bill which you have 
introduced; and certainly nothing in this bill changes the 
requirements that are present in State law.
    I won't get into the jurisdictional issue, but there is 
nothing in this bill that changes the State eligibility 
requirements.
    The Chairman. According to State law, they would have to 
fill out an application. They could do that by presenting an 
application to them, and then they would receive the ballot in 
the mail to them at the nursing home.
    All we are saying is that we think they need to be assisted 
in applying for it, and we think they should have assistance in 
filling it out. They are not given a stack of ballots to take 
with them. They have to apply for them like anywhere else.
    Mr. Ehlers. I am simply saying they should apply, as anyone 
else.
    NVRA, for example, just to make clear, does require the 
distribution of voter mail registration application forms, and 
I am just trying to make this comply with the NVRA law.
    The Chairman. Again, with all due respect, it is the same 
thing happening here. Nobody is walking into a nursing home 
with a stack of absentee ballots and passing them out. Anyone 
anywhere can have an application. I can walk around with an 
application.
    Mr. Ehlers. I don't contest that.
    The Chairman. That is what we are doing here.
    Mr. Ehlers. No. The way it is written, it states absentee 
ballots will be available, not applications.
    That is my concern. That is what we are trying to change.
    The Chairman. Again, I don't read it that way. I would be 
opposed to this amendment.
    The question is on Mr. Ehlers' amendment No. 1 to H.R. 
6625. All those in favor, signify by saying aye.
    Those opposed, no.
    In the opinion of the Chair, the noes have it.
    Mr. Ehlers. Mr. Chairman, if I may have the privilege of a 
comment. I think there may be a misunderstanding here between 
what my amendment is trying to do and what the bill is trying 
to do. I would be happy to sit down with you and your staff and 
our staff and try to make sure that we, first of all, 
understand each other on this and what our concern is.
    The Chairman. I will be more than happy to do that.
    Mr. Ehlers. I don't think we are apart in what we are 
trying to do, but I think we are getting tangled up in the 
language here.
    The Chairman. We can do that in the clarifying language in 
the report in September. I will be willing to work with you on 
that.
    The amendment was not agreed to.
    Now opening up again for any further amendments.
    Mr. Ehlers. I have a second amendment.
    [The information follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Ehlers. Amendment No. 2 provides clarification that 
nothing in this act may be construed to waive any requirement 
under State or local law regarding an individual's eligibility 
to receive an absentee ballot or vote by absentee ballot. And 
this is necessary because the act, as drafted, is vague as to 
whether section 4, which provides absentee ballot application, 
et cetera, be made available upon request, and establishes a 
new basis for eligibility to vote absentee which may conflict 
with State law.
    Again, we don't disagree with what you are trying to do. We 
are simply trying to clarify the language to make certain that 
it agrees with current law and State law.
    The Chairman. I have no problem in accepting this 
amendment.
    Mr. Capuano.
    Mr. Capuano. I am with you, Mr. Chairman.
    The Chairman. We accepted Ehlers' amendment No. 2.
    I recognize Mr. Ehlers for amendment 3.
    [The information follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Ehlers. Amendment No. 3, this amendment exempts from 
eligibility to be designated as a voter registration agency any 
VA facility where the voluntary service provides for the 
provision of voter registration and voting assistance services.
    To comment on that, this will ensure that the VA offers 
voter registration and voting assistance in a nonpartisan 
manner and with minimal disruption to facility operations. This 
service should be coordinated through the agency's voluntary 
service office at each medical facility.
    We should encourage State and local government officials to 
work with the voluntary service officers to provide 
coordinated, accurate, and timely voter registration 
information and services; and where the voluntary service 
provides these services, we think it is unnecessary for States 
to designate such facilities as voter registration agencies.
    The Chairman. I do appreciate again the gentleman's 
amendment. The only problem is that it does cut the cord of the 
bill.
    I am not comfortable with the VA having anything to say in 
regulating in any way, shape or form how a nonprofit can come 
into the veterans home, simply because the director already is 
saying that they cannot without having a conversation with any 
one of us; and that is the purpose of this bill.
    Again, I think it cuts the cord and I think it cuts the 
ability and the right of our men and women that have been in 
harm's way, while we are here in either our too-air-conditioned 
offices or not-too-air-conditioned offices; and we are trying 
to impede in any way, shape, or form, as the veterans 
administrator did when they impeded their right to get an 
opportunity to vote absentee or to be registered to vote at 
all.
    I would ask for a ``no'' vote on this.
    The question is on Ehlers amendment 3 to H.R. 6625. All 
those in favor, signify by saying aye.
    Those opposed, no.
    In the opinion of the Chair, the noes have it.
    I would like to recognize Mr. Ehlers for amendment No. 4.
    [The information follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Ehlers. Amendment No. 4, this amendment prohibits the 
provision of certain services at VA facilities that have been 
designated as voter registration facilities under NVRA section 
7 where the provision of such services would be detrimental to 
the health of or interfere with the provision of services to 
any patient or beneficiary.
    The goal here is to protect the well-being of our veterans. 
We are concerned by the stark differences between other voter 
registration agencies, such as public welfare agencies on the 
one hand, and VA facilities where injured veterans go to 
receive health care services. We simply want to protect the 
health and dignity of patients, and accordingly, we want to 
ensure that the provision of assistance with absentee ballots 
does not do harm to veterans in any way, under the care of the 
VA.
    So it is just saying, if someone is very ill and they 
shouldn't be disturbed, then they shouldn't be disturbed by 
people trying to get them to vote either.
    The Chairman. I can understand and appreciate the intent, 
but the problem with this is that, again, it goes back to our 
veterans administrator, who put out that directive that can say 
at any point in time they can exclude an entire facility.
    Our intent is not to disturb or bother or cause any 
hardship on these men and women, but allow them their rights. I 
want to ensure that no one--I can't imagine how you would try 
to bother or impose upon any veteran that is there, that can't 
or won't be able to or have the ability at that particular time 
to fill out an absentee ballot, to register to vote.
    The problem I have is excluding an entire facility. Again, 
it was at the direction of the veterans administrator, who I 
have no faith at all in, in allowing our veterans to be 
registered and being able to vote via absentee ballot. And so, 
again, I ask for a ``no'' vote on the amendment.
    Mr. Ehlers. So I take it, Mr. Chairman, you would like a 
new administrator?
    The Chairman. I am sure we will have one, one way or 
another.
    The question is on Ehlers amendment No. 4 to H.R. 6625. All 
those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the noes have it. The 
amendment is not agreed to.
    I recognize Mr. Ehlers again for amendment No. 5.
    [The information follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Ehlers. Amendment No. 5 would simply limit the scope of 
the applicability of the requirements of section 4 to those VA 
facilities where patients reside.
    I don't know if I have to really say much more about that, 
but the whole idea is, we are doing this for the patients, and 
it wouldn't have to apply to VA facilities that don't have 
patients.
    The Chairman. Again, I oppose this amendment.
    We should allow an outpatient that would have the 
opportunity to come into the Veterans Administration for any 
type of medical procedure, any type of medical update, any kind 
of prescriptions; they could probably have their appointments 
the same day, making it a one-stop shop when they know there is 
registration being held and have the opportunity to make it 
easier for them.
    Just because they are outpatient, I don't want to 
discriminate against them--again, to afford the luxury of 
making it easier for them to absentee vote or register to vote.
    So again, I ask for a ``no'' vote on this amendment.
    The question is on Ehlers amendment No. 5 to H.R. 6625. All 
those in favor, signify by saying aye.
    Those opposed, no.
    In the opinion of the Chair, the noes have it.
    The Chair moves to report H.R. 6625 favorably to the House 
with an amendment. All those in favor, signify by saying aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it. The motion 
is agreed to, and the bill is reported to the House.
    Without objection, a motion to reconsider is laid on the 
table.
    We will next consider H.R. 6627, the Smithsonian 
Institution Facilities Authorization Act for 2008.
    H.R. 6627 represents an agreement between our committee and 
the Committee on Transportation and Infrastructure to move two 
Smithsonian projects. We agree to release the bill at this 
point in order to get around jurisdictional dispute with other 
committees. It sets no precedent for future Smithsonian bills.
    Ranking Member Ehlers has joined me in cosponsoring this 
bill introduced by Chairman Oberstar. The House Administration 
Committee was given an additional referral to consider section 
2.
    That section authorizes a project at the Smithsonian 
Environmental Research Center in Edgewater, Maryland, on the 
Chesapeake Bay. H.R. 6627 will authorize a total of $41 million 
over 3 years for design and construction of the Mathias 
Laboratory renovation and trailer replacement project. $3.5 
million will be used to design the project for fiscal year 
2009, and has been included in the House Interior appropriation 
bill. Construction is then expected to cost $37.5 million over 
the following 2 fiscal years.
    The current Mathias Laboratory exceeds its capacity by 40 
percent, and is considered unsuitable for missions and safety 
of staff. The project will modernize the facility, a building 
that was constructed in seven phases between 1978 and 2000. The 
Smithsonian will also demolish a series of trailers and other 
ad hoc structures, some more than 30 years old, which pepper 
the site.
    The bill will also be considered by the Transportation 
Committee in its markup tomorrow. They will consider a SCRC 
project. And, also, section 3 of this bill deals with the 
Smithsonian Tropical Research Institute in Gamboa, Panama. I 
also support that project, which was inspected by committee 
staff from both sides last January.
    I would now like to recognize the ranking member, Mr. 
Ehlers, for an opening statement.
    Mr. Ehlers. Thank you, Mr. Chairman.
    I am proud to have cosponsored this bill which will enable 
additional research to continue both at the Smithsonian 
Environmental Research Center in Edgewater, Maryland, and at 
the Smithsonian Tropical Research Institute in Panama City, 
Panama.
    In the interest of time, I will not read the remainder of 
my statement, but submit it for the record. But I simply want 
to agree with the Chair's comments.
    These are very valuable facilities, particularly the 
research institution in Panama, which is a worldwide center for 
research. I have visited this in the past under the auspices of 
a different committee, and I know that our committee staff has 
gone down and visited the facility in Panama.
    I respectfully suggest, Mr. Chairman, that you organize a 
codel some time during this year to examine perhaps both 
facilities, but certainly the Tropical Research Institute in 
Panama. It is a great asset to the entire world, and I think 
the members of this committee should be completely aware of 
what a wonderful gem we have there and what we can do.
    I was surprised. I didn't even know about it when I went 
down there, as I said, under the auspices of another committee; 
and I was just astounded what an excellent facility it is. I 
certainly support the bill and respectfully suggest a codel.
    [The statement of Mr. Ehlers follows:]
    The Chairman. I appreciate that and I take your 
recommendation. We will put together a codel going down to 
Panama.
    The Chair now calls up before the committee H.R. 6627. 
Without objection, the first reading is dispensed with and the 
bill is considered as read and open to amendment.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    
    The Chairman. Is there any additional debate? Are there any 
amendments?
    If not, the Chair will move to report H.R. 6627 favorably 
to the House.
    The question is on the motion. All those in favor, say aye?
    Those opposed.
    In the opinion of the Chair, the ayes have it. The bill is 
reported to the House. Without objection, the motion to 
reconsider is laid on the table.
    Our next bill is H.R. 6608, a bill I introduced with Mr. 
Ehlers. This bill would replace lost income for military 
reservists working for the House of Representatives when they 
are activated for more than 30 days.
    I introduced this important bill after discussing with 
several House employees who have also served as members of the 
armed services. With our country engaged in mismanaged wars 
without end, some reservists or National Guard members are now 
being deployed for the second or third time. When they are 
called up, these men and women must leave their homes, families 
and jobs, often for an indeterminate and unpredictable amount 
of time. While on active duty, these men and women earn the 
wages of full-time servicemen and forfeit their regular salary.
    We know that many companies have helped families continue 
to survive during this difficult time by continuing to pay the 
difference between their annual salary and their active pay. 
This bill would do the same thing for House employees. It 
requires the CAO to provide debt supplement for House employees 
when they are activated involuntarily.
    This is a good bill that honors the devoted public service 
of our House employees who not only serve as stewards of our 
democracy at home, but as defenders abroad.
    I would now like to recognize the ranking member for any 
statement he may have.
    Mr. Ehlers. Thank you, Mr. Chairman. I thank you for your 
leadership on this issue, and I am proud to join with you as a 
cosponsor of this important bill.
    I think it is extremely important for us to help our Armed 
Forces in any way that we can, and we have an opportunity to do 
so with our own House staff, and we can set an example for the 
Nation by doing so.
    I submit the rest of my statement for the record in order 
to save time.
    The Chairman. I thank the gentleman.
    Any other statements?
    I now call up and lay before the committee H.R. 6608. 
Without objection, the first reading of the bill will be 
dispensed with. Without objection, the bill is considered as 
having been read and open for amendment at any point.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    
    The Chairman. Any debate? Any amendments?
    If not, the Chair will move to report H.R. 6608 favorably 
to the House. The question is on the motion. All those in 
favor, signify by saying aye.
    All those opposed?
    In the opinion of the Chair, the ayes have it and the bill 
is reported to the House. Without objection, the motion to 
reconsider is laid on the table.
    The next item is H. Res. 1207, which directs the Chief 
Administrative Officer to give House employees the option of 
receiving receipts of pay and withholdings electronically. This 
is a commonsense step to the modernization of our pay system. 
Not only will it simplify pay records, it will reduce paper and 
waste and support the Speaker's Green Capitol Initiative.
    I now recognize our ranking member for an opening 
statement.
    Mr. Ehlers. Thank you, Mr. Chairman. I fully support this 
bill. I think it achieves a number of goals. As I am sure 
everyone does, virtually all of my personal banking and 
financial work is done online, and the check that I receive 
from this institution goes to my bank. I never see it.
    By passing this bill, we can extend the electronic use even 
further and save time and paper. I believe it is a good bill.
    I submit the remainder of my statement for the record in 
the interest of time.
    The Chairman. I thank the gentleman.
    I now call up and lay before the committee H. Res. 1207. 
Without objection, the first reading of the resolution is 
dispensed with. And without objection, the resolution is 
considered as read and open to amendment any point.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    
    The Chairman. Is there any additional debate?
    Mr. Ehlers. I am sorry. I do have an amendment.
    The Chairman. Your amendment is now in order, Mr. Ehlers.
    [The information follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Ehlers. Page 2, line 11, strike the period and insert 
the following, ``the option of viewing electronically the 
individual's employee statement required under section 6051 of 
the Internal Revenue Code of 1986, and the option of revising 
electronically (to the extent permitted under applicable law 
and regulations) the individual's number of deductions and 
withholdings under that statement and information relating to 
the deposit of the individual's funds with the financial 
institution to which the electronic funds transfer is made.''
    I am just adding a few more things to improve the bill, and 
so if we want to change the number of dependents, instead of 
having to go down to the service's office or have them mail the 
form, we can get on line and enter our code and change our 
number of deductions, reduce or increase, whatever.
    We are just adding three different things, in other words, 
to make it an even better bill.
    The Chairman. I thank the gentleman.
    I would ask the committee to agree to Mr. Ehlers' 
amendment.
    The question is on Mr. Ehlers' amendment to H. Res. 1207. 
All those in favor, signify by saying aye.
    All those opposed?
    In the opinion of the Chair, the ayes have it.
    Any additional amendments?
    If not, the Chair moves to report H. Res. 1207 favorably to 
the House with an amendment.
    The question is on the motion. All those in favor, signify 
by saying aye.
    Those opposed, no.
    In the opinion of the Chair, the ayes have it and the 
resolution will be reported to the House. And without 
objection, the motion to reconsider is laid on the table.
    The next item of business is Committee Resolution 110-7 
related to shared employees in the House of Representatives.
    In May, the House inspector general told us the results of 
his investigation of how the system of shared employees affects 
the House. The IG made several recommendations regarding what 
we can do to secure House funds, and I would ask my statement 
be entered in the record for the sake of time.
    I would now like to recognize our ranking member for his 
opening statement.
    [The statement of Mr. Brady follows:]

             STATEMENT OF CHAIRMAN ROBERT A. BRADY

    In May, the House Inspector General told us the results of 
his investigation into how the system of shared employees 
affects the House. The IG made several recommendations 
regarding what we can do to secure House funds and data.
    Some of the IG's recommendations just required action by 
the CAO's office. We wrote to the CAO shortly after the hearing 
and asked him to take steps on disclosure and to educate 
Members and staff on the rules governing shared employees. But 
some of the IG's recommendations required additional 
regulations from this committee that we are taking up today.
    These rules would require employees who work for three or 
more offices to provide additional disclosure. They would be 
required to tell their employers who else they are working for. 
And they would be required to file annual financial disclosure 
forms. In addition, the regulations would require that shared 
employees read the Shared Employee Manual that the CAO is now 
preparing. They would have to certify that they are complying 
with the mandatory laws and rules listed in the manual. This 
requirement would only take effect after the Committee approves 
the manual.
    Finally, these new rules would make it clear that House 
staff are not permitted to market anything back to the House. 
We believe that this prohibition is already part of existing 
rules, but the IG's report suggested that we should make it 
more explicit.
    I now recognize the Ranking Member for his opening 
statement.
    Mr. Ehlers. Thank you, Mr. Chairman. I am pleased we are 
instituting these changes to the guidelines for shared 
employees. Most of our shared employees are very hardworking 
men and women who provide valuable services to many Members, 
but there are few individuals who might be tempted to take 
advantage of the system.
    Previously, shared employees who engaged in criminal 
activity used the currently largely unregulated, shared 
employee structure to their advantage. It is their actions that 
unfortunately make these reforms necessary. By implementing the 
financial disclosure statement filing requirement for those 
individuals who are concurrently employed by more than three 
offices, we will be increasing transparency into a key group of 
individuals that pose the greatest financial risk to the House.
    In addition, the shared employee reports that will be 
provided by the CAO, as well as the regulation which stipulates 
that existing House staff may not contract their services to 
other offices, will ensure that the House is safeguarded 
against those with criminal intent.
    Mr. Chairman, as you know, we have had a problem with this 
issue in the past year. And, in fact, one individual is either 
soon going to jail or has already gone to jail as a result; and 
we want to make sure we lock the barn door even after the horse 
is gone to make sure that it doesn't happen again.
    The Chairman. I thank the gentleman. We have many more 
horses still in this barn.
    Any other debate?
    Any amendments?
    I would now call up Committee Resolution 110-7. Without 
objection, the first reading is dispensed with. And Committee 
Resolution 110-7 is considered as read and open for amendment.
    [The information follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    
    The Chairman. Any debate?
    If not, the question is on agreeing to Committee Resolution 
110-7. All those in favor, signify by saying aye.
    Those opposed, no.
    The ayes have it. Committee Resolution 110-7 is agreed to. 
Without objection, the motion to reconsider is laid on the 
table.
    The last item of business is Committee Resolution 110-8 
related to student loan repayment, and I would ask unanimous 
consent to put my remarks into the record and ask my ranking 
member for any statement he would like to make.
    [The statement of Mr. Brady follows:]

                 STATEMENT OF CHAIRMAN ROBERT A. BRADY

    Recently the Congress increased the cap on student loan 
repayment--a benefit the federal government offers to some 
employees. However, that increase in benefits can't take effect 
in the House until this Committee changes the regulations.
    The resolution before us today would change the House 
regulations to increase the annual benefit cap to $10,000 and 
the lifetime cap to $60,000. It would also clean up some other 
technical errors in the regulation. These changes will place 
House staff on a level playing field with other federal workers 
and allow offices like the Legislative Counsel to recruit top 
employees.
    I now recognize the Ranking Member for his opening 
statement.
    Mr. Ehlers. Mr. Chairman, this again is something that is 
very important to our employees.
    The price of most goods and services has risen over the 
years and so, too, has the price of education. More and more 
young people pay their own way through school, and also are 
faced with substantial student loans once they graduate.
    I am pleased that the student loan repayment program has 
proven to be successful and that we have been able to alleviate 
some of the financial burden associated with higher education.
    As a former educator myself, I know the value of education 
far outweighs the cost of attendance. It is in the public's 
interest that we find creative ways to enable bright young 
people to embark upon careers in the legislative branch. With 
the House limited in what financial incentives we can offer 
those who are considering a career in public service, 
increasing the disbursement cap for the student loan 
reimbursement program is an excellent way to encourage recent 
graduates to choose public service while still being able to 
meet the financial obligations they entered into while 
achieving their educational goals.
    I thank you Mr. Chairman. I reserve the balance of my time.
    The Chairman. I thank the gentleman. And I call up 
Committee Resolution 110-8. Without objection the first reading 
is dispensed with and Committee Resolution 110-8 is considered 
as read and open for amendment.
    [The information follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    
    The Chairman. Any additional debate? Any additional 
amendments?
    If not, the question is agreeing to Committee Resolution 
110-8. All those in favor, signify by saying aye.
    Those opposed, no.
    In the opinion of the Chair, the ayes have it and Committee 
Resolution 110-8 is agreed to. Without objection, a motion to 
reconsider is laid upon the table.
    Without objection, staff may make technical and conforming 
changes to the various matters considered by the Committee 
today.
    There being no further business, I thank our committee 
members, those that stayed. I thank the gentlelady for staying. 
I thank this lovely audience for participating with us and 
staying with us for all this time. And I thank our ranking 
member and recognize our ranking member.
    Mr. Ehlers. Thank you, Mr. Chairman. We probably have to 
double the budget of the committee to pay for all the paper we 
generated today. I thank you for your work in the spirit in 
which this was done, and I hope we will be able to resolve our 
minor differences on some of the bills before they go to the 
Floor.
    The Chairman. We certainly will.
    I thank everyone. And have a good, healthy and safe break. 
Thank you all.
    If there is no further business, this committee stands 
adjourned.
    [Whereupon, at 2:14 p.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
